No. 20-5497
IN THE
SUPREME COURT OF THE UNITED STATES

MARCUS SIMPSON- PETITIONER
vs.
THE HAMILTON COUNTY COURT OF COMMON PLEAS
THE HONORABLE JUDGE ROBERT H. GORMAN
-RESPONDENT

PROOF OF SERVICE
I, Marcus Simpson so declare that on this ^

day of

2020 I have served a copy of this

Petition for Rehearing on the below named parties.
The names and address of those served by Reg. U.S. Mail are:
Joseph T. Deters (0012084P)
Hamilton County Prosecuting Attorney
230 East Ninth Street, Suite 4000
Cincinnati, Ohio 45202
Counsel for Respondent
That I declare under penalty of peijury that the foregoing is true and correct.
Marcus Sknpson pro se,.
781 Villas Circle
Cincinnati, Ohio 45215

